INTERIM REPORT ON AWARD-FEE CRITERIA
   FOR THE SYSTEM ENGINEERING AND
  TECHNICAL ASSISTANCE II CONTRACT

       Federal Aviation Administration

        Report Number: FI-2009-002
        Date Issued: October 7, 2008
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Interim Report on Award-Fee                                            Date:    October 7, 2008
           Criteria for the System Engineering and
           Technical Assistance II Contract
           Federal Aviation Administration
           Report Number: FI-2009-002

  From:    Mark H. Zabarsky                                                            Reply to
                                                                                       Attn. of:   JA-60
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Vice President of Acquisition and Business Services
           Federal Aviation Administration


           As part of our ongoing audit of the Use of Cost-Plus-Award-Fee (CPAF) contracts
           within the Department, we are issuing this interim report regarding the award of
           the Federal Aviation Administration’s (FAA) System Engineering and Technical
           Assistance (SETA II) contract to support the National Airspace System (NAS)
           Architecture and Capital Investment Plan. The objectives of our audit were to
           determine whether: (1) award-fee plans established adequate criteria for evaluating
           contractor performance, and (2) the amount of award fees paid to contractors was
           adequately supported.

           On August 16, 2000, FAA awarded a 10-year CPAF contract for SETA II to BAE
           Systems Applied Technologies 1 for approximately $455 million. The SETA II
           contract is broad in scope and covers facilities and equipment; operations and
           maintenance; and research, engineering, and development requirements. BAE
           Systems provides assistance to a wide range of FAA organizations, such as the
           Office of Research and Acquisitions and other FAA lines of business. FAA
           established an award-fee pool totaling approximately $36 million. The contractor
           is currently in the sixteenth award-fee performance period, which ended on
           September 30, 2008. 2 Approximately $8 million remains available for the
           seventeenth and subsequent performance periods. The SETA II contract states

           1
               BAE Systems was formed in November 1999 when British Aerospace merged with Marconi Electronics Systems.
           2
               A performance period is a 6-month timeframe.
                                                                                                                       2


that FAA may unilaterally change the performance evaluation plan provided the
contractor receives notice of the changes, in writing, within the first 30 days after
commencement of the award-fee evaluation period.

We performed this performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States, and included such tests as we considered necessary to detect fraud,
waste, and abuse. Exhibit A describes the scope of our audit and the methodology
we used to achieve our objectives. The information in this interim report will be
included in a later report addressing Department-wide CPAF contracting issues.


FINDINGS
We found that the evaluation criteria in the performance evaluation plan 3 for the
SETA II contract did not include measurable criteria needed to adequately
evaluate contractor performance. Also, descriptions defining scores to rate
contractor performance were vague and performance evaluators 4 were not
required to document the rationale for the performance ratings. Evaluation criteria
without clearly defined metrics, and vague scoring descriptions, could result in
inflated contractor performance evaluations and, consequently, inappropriately
approved award fees.

Additionally, FAA no longer requires its performance evaluators to provide
succinct narrative comments, including the identification of specific strengths,
weaknesses, and deficiencies, when rating a contractor. Removing such a
requirement allows for and relies on unsupported personal opinions and individual
judgments, and raises questions as to what was actually the basis for judging
contractor performance and awarding fees.

Further, we found that contracting officials did not justify the cost-effectiveness of
selecting a CPAF-type contract by evaluating administrative costs versus expected
benefits to the Government. Without this evaluation, FAA had no assurance that a
CPAF-type contract was appropriate. The award-fee guidelines used by FAA 5 and
other Federal agencies require costs and benefits consideration prior to choosing a
CPAF contract.



3
    The performance evaluation plan is the basis for determining the amount of award fee and includes the award-fee
    criteria to be considered under each area evaluated; the percentage of award fee, if any, available for each area; and
    the frequency of evaluation periods.
4
    Performance evaluators are FAA staff who track and assess contractor performance daily.
5
    FAA included this best practice in its Award-Fee Contracting Guide, issued September 2007; however, it was 7 years
    after the contract was awarded.
                                                                                  3


Award-Fee Plan Criteria Were Too General
The performance evaluation plan did not include clear and measurable award-fee
criteria needed to adequately evaluate contractor performance. For example, the
Technical Achievement factor used undefined terms such as “the quality and
accuracy of deliverables” or “the degree of flexibility” as the standards of review.
The Task Order Management factor used general terms such as “understands task
order requirements and deliverables.” Additionally, the Contract Management
factor used general terms such as “submits documents requiring FAA review and
approval in a timely manner.”

FAA’s guidance states that outcome-based criteria are the least administratively
burdensome type of performance evaluation criteria, and should provide the best
indicator of overall success. Guidance from other Federal Government agencies,
such as the National Aeronautics and Space Administration (NASA) and the
Departments of the Air Force, Army, and Navy, also prefer using measurable
criteria to evaluate contractor performance. Additionally, guidance from these
agencies, including FAA, states that using evaluation criteria that are too broad
can result in evaluators not being able to provide meaningful comments to support
ratings.

Establishing specific criteria based on performance objectives would reduce the
risk of unwarranted or subjective performance evaluations and ratings. Evaluation
criteria must emphasize the most important aspects of the program to motivate the
contractor to improve performance for each performance period. Performance
monitors cannot provide meaningful comments and evaluations using vague,
general, or too broadly defined criteria.

The effect of having evaluation criteria without establishing clearly defined
metrics for assessing performance could result in inflated evaluations and,
consequently, inappropriately approved award fees. For the first fifteen award-fee
periods of the SETA II contract, FAA paid the contractor approximately $13
million (90 percent of the available award-fee pool) without assurances of whether
the acquisition outcomes fell short of, met, or exceeded expectations. Without
indicating areas of emphasis or desired outcomes, FAA does not have assurances
that contract objectives are being met, nor does the contractor have motivation to
perform the best possible job in those areas deemed critical.

Revising the SETA II performance evaluation plan to include measurable award-
fee criteria will put approximately $8 million in expected award fees for the
SETA II contract to better use by ensuring FAA’s contract objectives are being
met, and motivating the contractor to perform the best job in those areas deemed
critical by the FAA.
                                                                                    4


Evaluator Scoring Descriptions Were Too Vague for Rating
Performance
The chart in the performance evaluation plan (Exhibit B) used to compute the
amount of award fee contains a payment structure that associates a range of award
fees (between 0 and 100 percent) with four adjectival ratings—Excellent, Very
Good, Satisfactory, and Poor. The descriptions defining the adjectival ratings,
however, did not clearly define the basis for assigning such a rating. For example,
a rating of Excellent is defined as:

       “Contractor's performance significantly exceeds the general level of
       achievement of a qualified Contractor in this field with all objectives
       exceeded.”

Terms such as “significantly exceeds” and “general level of achievement of a
qualified Contractor in this field” are undefined. FAA must clearly describe its
adjectival ratings so there will be a basis for performance monitors to use in
assessing contractor performance.


Performance Evaluation Plan No Longer Requires Evaluators to
Justify Scores
FAA no longer requires performance evaluators to provide succinct narrative
comments, including the identification of specific strengths, weaknesses, and
deficiencies, when rating a contractor. Instead, FAA only encourages its
evaluators to provide such comments. The SETA II Director of Systems
Engineering said the removal of the documentation requirement was intended to
increase the number of evaluation responses submitted by performance evaluators.
The director said the response rate has since increased; we did not verify if the rate
increased.

Guidance from other Federal Government agencies such as NASA, and
Departments of the Air Force, Army, and Navy, states that performance monitors
should observe contractor performance based on the criteria specified in the
performance evaluation plan, and document results by giving specific examples to
support their conclusions. FAA consistently provided the contractor with high
ratings and award fees—approximately $13 million, or 90 percent of the available
award-fee pool. Without sufficiently documenting contractor evaluations, we
could not determine if FAA properly awarded fees. Such a process allows for and
relies on unsupported personal opinions and individual judgments.
                                                                                  5


FAA Has No Assurance the Contract Type Is Appropriate for the
SETA II Contract
FAA contracting officials did not justify the cost effectiveness of selecting a
CPAF-type contract. Performance evaluation on an award-fee contract requires
greater effort and more resources than other types of contracts because oversight is
required to monitor and document contractor performance. FAR, FAA, and
award-fee guides used by other Federal agencies require agencies to consider costs
and benefits before choosing a CPAF-type contract. For example, NASA
guidance states that before a CPAF contract is selected, a contracting officer
should perform a cost/benefit analysis of the expected benefits versus the added
administrative costs.


RECOMMENDATIONS
We recommend that the Vice President of Acquisition and Business Services,
FAA:

1. Develop measurable award-fee criteria for assessing contractor performance
   and link the criteria to the acquisition outcomes for the work to be
   accomplished.

2. Describe adjectival ratings clearly so there will be a basis for assessing
   performance.

3. Require performance evaluators to provide succinct narrative comments,
   including the identification of specific strengths, weaknesses, and deficiencies
   to support assigned ratings.

4. Require the SETA II contracting officer to reevaluate the contract type for
   future SETA procurement contracts and justify the use of an award-fee
   contract by performing a cost/benefit analysis.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL’S
RESPONSE
We discussed the problems cited in this report with FAA officials including the
Acting Program Director for the Contract Operations and Oversight Group, the
Manager of the Contracting Services Group, and the SETA II Program Manager
                                                                                          6


on August 26, 2008. As a result, FAA officials agreed to take the following
actions to address the problems cited in this report. 6

       • The SETA Team intends to revise its practices to more closely align with
         the goal of performance-based contracting.

       • The SETA Team will define contract goals and objectives that are
         performance-based. This includes requiring the SETA-II contractor to
         provide a plan to accomplish the goals and objectives.

       • The SETA Team will include performance metrics in all applicable task
         orders for incorporation into the award-fee process.

       • The Contracting Officer recommends the revision of the award fee plan for
         SETA II for all subsequent Award Fee Periods to more accurately identify
         measurable award fee criteria for determining contractor performance and
         link the criteria to the acquisition outcomes for the required work.

As FAA management’s actions are ongoing at the time of this report, we cannot
evaluate the efficiency of these actions; however, we believe the results of these
actions will correct the problems identified in this report. Implementing the
planned corrective actions will put approximately $8 million in expected award
fees to better use by revising the performance evaluation plan and ensuring FAA’s
acquisition objectives are being met.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. If you
concur with the recommendations, please indicate the specific action taken or
planned and provide the target date for completion. If you do not concur with the
findings or recommendations, please provide your rationale. You may provide
alternative courses of action that you believe would resolve the issues presented in
this report. Also, please comment whether you agree that the estimated $8 million
remaining in award fees for the SETA II contract could be put to better use by
revising the performance evaluation plan.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-5225 or Terrence Letko, Program Director, at (202) 366-9917.


6
    FAA’s planned corrective actions were provided in a memorandum, September 23, 2008.
                                            7


                                      #

cc: Acting Federal Aviation Administrator
    Senior Procurement Executive
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                              8




EXHIBIT A. SCOPE AND METHODOLOGY
This audit is associated with our Department-wide Audit of the Use of Cost-Plus-
Award-Fee Contracts, Project Number 07F3011F000. We conducted this
performance audit in accordance with Generally Accepted Government Auditing
Standards and included such tests as we considered necessary to detect fraud,
waste, and abuse.

To determine whether the SETA II contract award-fee plans were adequately
designed we reviewed:

   • FAA’s guidance for award-fee contracts;

   • Award-fee plans and criteria;

   • Statements of work and deliverables for the contract and selected task
     orders;

   • Two performance evaluation reports used to measure the contractor’s
     performance against award-fee criteria; and

   • Best Practices for award-fee contracts (Departments of the Air Force,
     Army, and Navy, and NASA Award-Fee Guides).

We reviewed the acquisition plan for the contract to determine whether
improvements could be made in the methods used for obtaining the SETA II
contract. We also interviewed FAA acquisition and program officials regarding
the performance evaluation plan and processes and discussed the results of our
findings with senior FAA acquisition officials.




Exhibit A. Scope and Methodology
                                                                             9




EXHIBIT B. EVALUATOR SCORING CHART

      DESCRIPTORS                             DESCRIPTIONS

       EXCELLENT                       Contractor’s performance significantly
       Rating 90 – 100                 exceeds the general level of
                                       achievement of a qualified Contractor in
                                       this field with all objectives exceeded.

       VERY GOOD                       Contractor’s performance has achieved
       Rating 80 – 89                  highly effective results that are fully
                                       responsive and compliant with all
                                       requirements contained within the
                                       contract and task orders.

      SATISFACTORY                     Contractor’s performance is fully
        Rating 50 – 79                 responsive to SETA-II Contract and
                                       task order requirements; adequate
                                       results.

           POOR                        While Contractor’s performance may be
        Rating 0 – 49                  responsive to SETA-II Contract and
                                       task order requirements, results are
                                       barely adequate. Performance that
                                       doesn’t meet expectations is noted with
                                       a clear negative impact on overall
                                       contract performance.




Exhibit B.   Evaluator Scoring Chart
                                                          10


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Terrence Letko                       Program Director

  Dormayne Dillard-Christian           Project Manager

  Jelilat Ojodu                        Auditor

  Jean Diaz                            Writer/Editor




EXHIBIT C. Major Contributors to this Report
                                                                              11


The following page is a textual version of an exhibit found in this document that
was not in the original document; it has been added here to accommodate assistive
technology.
                                                                                  12


             Interim Report on Award-Fee Criteria for the System
               Engineering and Technical Assistance II Contract

                      Section 508 Compliant Presentation

Exhibit B. Evaluator Scoring Chart

A descriptor rating of excellent, 90 to 100 percent, is described as a contractor’s
performance significantly exceeds the general level of achievement of a qualified
Contractor in this field with all objectives exceeded.

A descriptor rating of very good, 80 to 89 percent, is described as a contractor’s
performance has achieved highly effective results that are fully responsive and
compliant with all requirements contained within the contract and task orders.

A descriptor rating of satisfactory, 50 to 79 percent, is described as a contractor’s
performance is fully responsive to SETA II contract and task order requirements;
adequate results.

A descriptor rating of poor, 0 to 49 percent, is described as while a contractor’s
performance may be responsive to SETA II contract and task order requirements,
results are barely adequate. Performance that doesn’t meet expectations is noted
with a clear negative impact on overall contract performance.
